cme Emenee

i ABana a  aa

WAIVER

Supreme Court of the United States

No. 19-250

Oklahoma v. Jesse Allen Johnson
(Petitioner) (Respondent)

[IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court. ;

Please check the appropriate boxes:
f Please enter my appearance as Counsel of Record for all respondents.

OQ There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

 

 

= Lama member of the Bar of the Supreme Court of the United States.

O Lam not presently a member of the Bar of this Court, Should a response be requested,
the response will}p filed ae member,

Signature, pals y
Date: “fafa 9

 

(ype or print) Name_Alndrea Diqvivo Avie
O Mr.

 

 

 

 

OMs. EPMxs. 0 Miss
Firm,
Address 860 NM. Precis Ave.
City & State__O ic le hom on Gilby. Ge Zip FINS

Phone ___ 795 - 20€- 6/6)

SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE, PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED,

Ce fennda = Hmsperger
Dlreatronr Cony thee Attorneys Of Fn
ZO Rebud. S. Kerr, Sute Sos™
Oktahrome UW, OK FEIT

Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
hittpi/www.supremecourtus.gov. Have the Supreme Court docket number available.

ven nnn tnrnnintnannnorrnenrtraatnnsianimens yearn
steer
